TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Case Processing Delays and
                          Tax Account Errors Increased
                       Hardship for Victims of Identity Theft



                                      September 26, 2013

                              Reference Number: 2013-40-129




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


CASE PROCESSING DELAYS AND                             on these 100 identity theft cases averaged
TAX ACCOUNT ERRORS INCREASED                           277 days. In addition, tax accounts were not
HARDSHIP FOR VICTIMS OF IDENTITY                       correctly resolved for 25 cases, resulting in
THEFT                                                  delayed refunds and/or incorrect refunds.
                                                       Finally, processes to ensure the accuracy of
Highlights                                             identity theft management information need to
                                                       be developed. In the Calendar Year 2012
                                                       Refund Fraud and Identity Theft Global Report
Final Report issued on
                                                       (Global Report), the Accounts Management
September 26, 2013                                     function’s open case inventory was overstated
Highlights of Reference Number: 2013-40-129            by 95,429 cases. In addition, documentation
to the Internal Revenue Service Deputy                 was not maintained supporting the inventory
Commissioner for Operations Support and the            provided by the Accounts Management function.
Commissioner, Wage and Investment Division.            The Global Report is the IRS’s authoritative
IMPACT ON TAXPAYERS                                    source for identity theft management
                                                       information. It provides key statistics on the
The Federal Trade Commission reported that             number of identity theft open and closed cases,
identity theft was the number one complaint in         incidents, and affected taxpayers and on the
Calendar Year 2012, and government                     amount of fraudulent refunds the IRS identified.
documents and benefits fraud was the most
common form of reported identity theft. The IRS        WHAT TIGTA RECOMMENDED
reported that this crime affected 1.2 million          TIGTA recommended that the IRS: 1) ensure
taxpayers in Calendar Year 2012, and an                that assistors assigned to identity theft cases
additional 1.6 million were affected in Calendar       work these cases exclusively and are provided
Year 2013 as of June 29, 2013. Case                    with ongoing training and the ability to perform
processing delays and tax account errors               actions to work these cases to conclusion;
increased hardship for victims of identity theft.      2) develop clear and consistent processes and
WHY TIGTA DID THE AUDIT                                procedures to ensure that taxpayer accounts are
                                                       correctly updated when cases are resolved;
This audit was initiated to follow up on concerns      3) develop a standard format for information
raised in a prior audit that the IRS was not           provided for inclusion in the Global Report;
providing quality customer service to identity         4) develop validation processes and procedures
theft victims. Our overall objective was to            to ensure the accuracy of information included in
determine whether the IRS improved its                 the Global Report; and 5) develop retention
assistance to victims of identity theft.               requirements for the documentation supporting
                                                       information included in the Global Report.
WHAT TIGTA FOUND
                                                       The IRS agreed with the recommendations and
Our review of a statistical sample of 100 identity     plans to continue to ensure that there are
theft cases closed August 1, 2011, through             sufficient resources assigned to identity theft
July 31, 2012, found that the IRS correctly            inventory and phones and that processes and
determined the rightful owner of the Social            procedures are developed to ensure that all
Security Number in all cases. However,                 appropriate actions are taken on identity theft
taxpayers continued to face delays, with some          victims’ accounts. The IRS also plans to
cases having significant inactivity during case        develop a template for use when reporting
processing. In addition, tax accounts were not         inventory for the Global Report and plans to use
always correctly resolved before the cases were        a certification process for each function to verify
closed. For the 100 cases reviewed, case               the data it provided. Lastly, the IRS plans to
resolution averaged 312 days and cases had             ensure that each function maintains
significant periods of inactivity (i.e., no work was   documentation in accordance with retention
being performed to resolve the case). Inactivity       standards.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 26, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Case Processing Delays and Tax Account Errors
                             Increased Hardship for Victims of Identity Theft (Audit # 201240041)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is improving its assistance to victims of identity theft. This audit is included in the
 Treasury Inspector General for Tax Administration’s Fiscal Year 2013 Annual Audit Plan and
 addresses the major management challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me if you have questions or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).
                                   Case Processing Delays and Tax Account Errors
                                   Increased Hardship for Victims of Identity Theft




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Case Processing Delays and Errors Increased Hardship
          for Identity Theft Victims ............................................................................. Page 5
                    Recommendations 1 and 2: .............................................. Page 14

          Processes to Ensure the Accuracy of the Identity Theft
          Management Information Need to Be Developed ........................................ Page 15
                    Recommendations 3 through 5:......................................... Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Outcome Measure ................................................................ Page 21
          Appendix V – Management’s Response to the Draft Report ....................... Page 22
        Case Processing Delays and Tax Account Errors
        Increased Hardship for Victims of Identity Theft




                Abbreviations

CY        Calendar Year
FY        Fiscal Year
IRS       Internal Revenue Service
PGLD      Privacy, Governmental Liaison, and Disclosure
SSN       Social Security Number
TAS       Taxpayer Advocate Service
TIGTA     Treasury Inspector General for Tax Administration
                              Case Processing Delays and Tax Account Errors
                              Increased Hardship for Victims of Identity Theft




                                            Background

The Federal Trade Commission reported that identity theft was the number one complaint in
Calendar Year1 (CY) 2012. Government documents/benefits fraud was the most common form
of reported identity theft:
         Government documents/benefits fraud increased 27 percent since CY 2010.
         Florida is the State with the highest per capita rate of reported identity theft complaints,
          followed by Georgia and California.2
Identity theft affects the Internal Revenue Service (IRS) and tax administration in two ways—the
filing of fraudulent tax returns (refund fraud) and misreporting of income (employment-related
fraud). Both can potentially harm taxpayers who are victims of the identity theft. Figure 1
provides an illustrative description of both refund fraud and employment-related fraud.
              Figure 1: Description of Refund and Employment-Related Fraud




Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of the identity theft process.

1
    The 12-consecutive-month period ending on December 31.
2
    Federal Trade Commission, Consumer Sentinel Network Data Book (Feb. 2013).
                                                                                                            Page 1
                               Case Processing Delays and Tax Account Errors
                               Increased Hardship for Victims of Identity Theft



Refund fraud adversely affects the ability of innocent taxpayers to file their tax returns and
timely receive their tax refunds, often imposing significant financial and emotional hardships.
Employment-related identity theft can affect taxpayers when the IRS attempts to take
enforcement actions for allegedly unreported income.
To mitigate hardships, the IRS developed identity theft indicators to mark and track the types of
identity theft incidents (IRS-identified or taxpayer-initiated)3 and the actions taken by employees
on taxpayers’ accounts. An identity theft indicator is input on affected taxpayers’ accounts after
the IRS confirms that the taxpayer is a victim of identity theft. Another indicator is input after
the IRS resolves the case. These indicators are also used to gather data about the number of
identity theft incidents and affected taxpayers. Figure 2 shows the number of incidents and
taxpayers reported by the IRS during CYs 2010 through 2013.
                   Figure 2: Identity Theft Incidents and Taxpayers Affected
                               During CY 2010 Through CY 2013

                             IRS-Identified             Taxpayer-Initiated                    Total
          Calendar
            Year        Incidents      Taxpayers       Incidents     Taxpayers       Incidents     Taxpayers

            2010          338,753        201,376        101,828         69,142         440,581        270,518

            2011        1,014,884        553,730        110,750         87,322       1,125,634        641,052

            2012        1,508,375        985,843        277,491        233,365       1,785,866     1,219,208

            2013*       1,688,817      1,449,602        212,288        181,009       1,901,105     1,630,611

        Source: IRS Identity Protection Incident Tracking Statistics Reports.4
        * CY 2013 figures are through June 29, 2013.

The Privacy, Governmental Liaison, and Disclosure Office oversees IRS efforts to
address identity theft
The Privacy, Governmental Liaison, and Disclosure (PGLD) Office provides oversight and
coordination of IRS efforts to address the growing identity theft epidemic. The office produces
the monthly Refund Fraud and Identity Theft Global Report (Global Report), which is the IRS’s
authoritative source for providing Service-wide refund fraud and identity theft statistics. The
report is compiled from 33 systems within 20 IRS functions.

3
  IRS-identified cases are ones for which the IRS proactively identified the taxpayer as a potential identity theft
victim. Taxpayer-initiated cases are ones for which taxpayers initiated contact with the IRS to report that after filing
their tax return they received a notice indicating that it was rejected because someone (an identity thief) had already
filed a tax return using the same Social Security Number (SSN) and name. A taxpayer may have more than one
incident if the identity thief uses the stolen identity to file a fraudulent tax return for multiple tax years.
4
  The Identity Protection Incident Tracking Statistics Report is a source for the Refund Fraud and Identity Theft
Global Report.
                                                                                                                Page 2
                              Case Processing Delays and Tax Account Errors
                              Increased Hardship for Victims of Identity Theft



In addition, the Director, PGLD Office, chairs a two-tiered governance structure comprised of
the Identity Theft Executive Steering Committee and the Identity Theft Advisory Council. The
Identity Theft Executive Steering Committee is comprised of representatives from across the
IRS. Its purpose is to serve as the governance structure providing key guidance and oversight to
those organizations working identity theft cases Service-wide. The Identity Theft Advisory
Council was established as a subcommittee of the Identity Theft Executive Steering Committee
to oversee initiatives within the IRS Identity Theft Program and apprise the Executive Steering
Committee on new and ongoing initiatives.

The Accounts Management function works the majority of taxpayer-initiated
identity theft cases
As of June 29, 2013, the majority (70 percent) of taxpayer-initiated cases originated and were
worked in the Accounts Management function, which is in the Wage and Investment Division.
This function places the identity theft indicators on the taxpayers’ tax accounts, inputs
adjustments to the accounts, and provides assistance to taxpayers with tax and account inquiries
via telephone and correspondence. In preparation for the 2013 Filing Season,5 the Accounts
Management function set up four identity theft specialized groups6 made up of approximately
1,300 employees to address the complexities of the identity theft cases. These groups were
intended to improve case tracking and enhance customer service by improving efficiency.
Figure 3 shows the identity theft case inventory that the Accounts Management function reported
during Fiscal Year7 (FY) 2011 through FY 2013.8
                           Figure 3: Accounts Management Inventory
                                From FY 2011 Through FY 2013

                          Identity Theft          FY 2011         FY 2012        FY 2013*

                     Beginning Inventory            36,618          99,894          382,329
                     Receipts                      184,501         654,564          439,440
                     Closures                      121,225         372,129          661,925
                     Ending Inventory               99,894         382,329          159,844
                   Source: Accounts Management function identity theft inventory.
                   * FY 2013 figures are through June 22, 2013.


5
  The period from January through mid-April when most individual income tax returns are filed.
6
  These groups are located in Fresno, California; Atlanta, Georgia; Philadelphia, Pennsylvania; and Austin, Texas.
7
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
8
  The Accounts Management function does not compile inventory figures by unique taxpayer but rather counts by
Identity Theft Case Processing Category Codes, which can result in multiple cases for the same taxpayer in its
inventory control system.
                                                                                                          Page 3
                             Case Processing Delays and Tax Account Errors
                             Increased Hardship for Victims of Identity Theft



A prior TIGTA review identified concerns with the quality of customer service
provided to taxpayers
In May 2012 we reported9 that identity theft cases were not worked timely and can take more
than a year to resolve. Our review of a judgmental sample of 17 unique taxpayer cases classified
as identity theft and originating in five functions10 showed that case resolution averaged
414 days, cases were open from three to 917 days, and inactivity on the cases averaged 86 days.
The IRS structure provided limited oversight to ensure that identity theft cases were worked
timely and effectively. Communications between the IRS and victims were limited and
confusing, and victims were asked multiple times to substantiate their identity. Lastly, after
instructing taxpayers to mail in a paper tax return with Form 14039, Identity Theft Affidavit, and
attached supporting identity documents, the IRS processed these tax returns using standard
processing procedures.
We recommended that the IRS: 1) establish accountability for the Identity Theft Program;
2) implement a process to ensure notices and correspondence are not sent to the address listed on
the identity thief’s tax return; 3) conduct an analysis of the letters sent to taxpayers; 4) ensure
that taxpayers are notified when the IRS receives their identifying documents; 5) create a
specialized unit in the Accounts Management function to exclusively work identity theft cases;
6) ensure that all quality review systems used by IRS functions working identity theft cases are
revised to select a representative sample of those cases; and 7) revise procedures for the
Correspondence Imaging System screening process. The IRS agreed with all of our
recommendations.
This audit is a follow-up to our May 2012 audit. The audit was performed in the PGLD Office
and the Wage and Investment Division Customer Account Services function in Atlanta, Georgia,
and at Submission Processing Sites11 in Atlanta, Georgia; Kansas City, Kansas; Andover,
Massachusetts; and Philadelphia, Pennsylvania, during the period October 2012 through
July 2013. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.



9
  TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund Fraud Do
Not Receive Quality Customer Service (May 2012)
10
   The 17 cases originated from the Accounts Management function, Correspondence Examination function, Field
Assistance Office, Field Examination function, and Taxpayer Advocate Service.
11
   The data processing arm of the IRS. The sites process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 4
                          Case Processing Delays and Tax Account Errors
                          Increased Hardship for Victims of Identity Theft




                                Results of Review

Case Processing Delays and Errors Increased Hardship for Identity
Theft Victims
In response to concerns raised in our May 2012 report, the IRS is taking corrective actions to
improve its assistance to victims of identity theft. The IRS established an oversight committee
for the Identity Theft Program, revised letters it sends to victims in an effort to improve the
clarity of the information provided, and established specialized groups in the Accounts
Management function to improve customer service to victims of identity theft. These corrective
actions were not in place during the time frame that the cases we reviewed for this audit were
worked.
Our review of a statistically valid sample of 100 identity theft cases closed in the Accounts
Management function between August 1, 2011, and July 31, 2012, identified lengthy delays in
working the cases and found that tax accounts were not always correctly resolved, which resulted
in delayed or incorrect refunds. Management raised concerns that the cases we reviewed were
closed prior to the case processing improvements implemented for the 2013 Filing Season. We
agree that these cases would not reflect subsequent improvements. However, the sample we
selected was from taxpayer cases that were closed in the Accounts Management Function during
the 12 months prior to the start of our audit. These were the most representative closed cases to
select a sample from when we initiated our review. Additionally, although cases were closed
between the period August 1, 2011, and July 31, 2012, some of the cases were reopened as a
result of tax account errors. Our assessment of taxpayer cases included the actions the IRS took
to correct the reopened cases. Some of these taxpayers did not receive corrected tax refunds
until 2013.
IRS management believes that the case processing improvements implemented for the
2013 Filing Season will improve its processing of identity theft cases. Management noted that
procedures were implemented to expedite the processing of tax returns with an attached
Form 14039. Paper tax returns with an attached Form 14039 or police report are being marked
with a special processing code and expedited directly to the Accounts Management function for
case processing. The IRS indicated that the direct routing of these tax returns will shorten case
processing by one to two months.
We did not evaluate these improvements because cases handled using these new processes were
not closed when we initiated our review and selected our sample. Furthermore, to assess IRS
case processing from the taxpayer’s perspective, we reviewed closed cases to evaluate the
timeliness and accuracy of actions taken by IRS to resolve victims’ cases from receipt of the

                                                                                           Page 5
                          Case Processing Delays and Tax Account Errors
                          Increased Hardship for Victims of Identity Theft



lawful taxpayer’s tax return to the issuance of the refund to which they were entitled. We will
continue to evaluate the effect that the corrective actions and new processes have on improving
customer service to victims of identity theft as part of case reviews performed in follow-up
audits.

Identity theft cases were not timely resolved
The IRS took an average 312 days to resolve the 100 cases we reviewed. Of the 100 cases,
24 (24 percent) were in process for more than 365 days. The time period cases were open ranged
from 33 to 1,329 days. The time to resolve the cases was calculated from the date the IRS
received the victim’s tax return to the date the correct refund was ultimately paid. Figure 4
shows the range of days it took the IRS to resolve the cases we reviewed.
                Figure 4: Days Taken to Resolve Identity Theft Cases

                     Number                                    Range of Days
                     of Cases           Percent              to Resolve Cases

                         15               15%                  Less Than 151

                          9                9%                       151 to 200

                         17               17%                       201 to 250

                         18               18%                       251 to 300

                         17               17%                       301 to 365

                          9                9%                       366 to 400

                          4                4%                       401 to 500

                         11               11%               Greater Than 500

                 Source: TIGTA analysis of days to resolve cases in our sample.




                                                                                          Page 6
                              Case Processing Delays and Tax Account Errors
                              Increased Hardship for Victims of Identity Theft



The following timeline illustrates a composite of activity for the 100 identity theft cases we
reviewed.
     January          The identity thief files a fraudulent tax return using someone else’s identity and
      2011            attempts to obtain a tax refund.
                      Subsequently, the rightful owner of the identity (the taxpayer) attempts to
                      electronically file his or her tax return. The taxpayer’s tax return is rejected because
                      his or her SSN was previously used on a filed tax return and, therefore, cannot be
                      used on another tax return.
                      The taxpayer calls the IRS and explains the situation to an IRS customer service
                      assistor.
                      After authenticating the taxpayer,12 the customer service assistor researches the
                      taxpayer’s account and determines if a tax return has already been filed using that
                      name and SSN.
                      The customer service assistor confirms that a tax return was already filed under that
                      name and SSN and advises the taxpayer to file a paper tax return and attach 1) a
                      Form 14039 or a police report and 2) a valid government-issued document such as a
                      copy of a Social Security card, passport, or driver’s license to the tax return.
     March            The IRS receives the taxpayer’s paper tax return at one of its submission processing
     2011             sites and a tax examiner enters data from the tax return into the IRS’s computer
                      system.
                      The tax return is identified as a duplicate and the taxpayer’s account is updated
                      accordingly. The taxpayer is identified as having a possible identity theft case. The
                      case is assigned a holding number13 and is placed in a queue to be worked by an
                      Accounts Management function assistor.
      April           The taxpayer calls the IRS toll-free line again and asks when he or she will receive
      2011            the tax refund.  
                      The customer service assistor, after authenticating the taxpayer, researches the
                      taxpayer’s account, determines that a duplicate tax return has been filed, and
                      advises the taxpayer that there will be delays in processing the tax return.
                      The customer service assistor updates the taxpayer’s account and informs the
                      taxpayer that he or she may receive correspondence requesting additional
                      information.




12
   To prevent unauthorized disclosure of tax information, assistors are required to authenticate who they are
speaking to by asking the individual a series of questions to which only that taxpayer would know the answer.
13
   A holding number is used when managers are unable to immediately assign an identity theft case for review.
These cases are held in a queue until the case can be assigned to an assistor.
                                                                                                           Page 7
                   Case Processing Delays and Tax Account Errors
                   Increased Hardship for Victims of Identity Theft




  July      The taxpayer walks into an IRS Taxpayer Assistance Center and asks about the
  2011      status of his or her identity theft case.
            The Taxpayer Assistance Center assistor, after authenticating the taxpayer,
            researches the tax account and determines that the taxpayer’s case is in process.
            The Taxpayer Assistance Center assistor tells the taxpayer that the case is being
            worked and he or she should receive correspondence from the IRS within 30 days.
September   The taxpayer calls the IRS’s toll-free line again and asks when he or she will receive
  2011      the tax refund.
            The customer service assistor, after authenticating the taxpayer, researches the
            taxpayer’s account and tells the taxpayer that the case is still being worked and that
            he or she should receive an interim letter confirming this. The taxpayer is advised
            that the case will be resolved within 60 days.
 October    The taxpayer’s case is finally assigned to an Accounts Management function assistor
  2011      for resolution; that assistor orders copies of the original filed tax returns and sends
            letters to the alleged identity thief and the taxpayer to determine the legitimate
            taxpayer (the rightful owner of the identity).
            The legitimate taxpayer responds, confirming that he or she did not electronically file
            the first tax return.
December    The taxpayer calls the toll-free line again and asks when he or she will receive the
  2011      tax refund.  
            The customer service assistor, after authenticating the taxpayer, researches the tax
            account and tells the taxpayer that an Accounts Management assistor is working the
            case and resolution will take another 60 days. The customer service assistor also
            sends a referral to the Accounts Management assistor working the case, informing
            him or her of the contact.
            The Accounts Management assistor finally determines which individual is the
            legitimate taxpayer and requests adjustments to the taxpayer’s account. These
            adjustments include ensuring that the tax account reflects the correct information
            from the taxpayer’s tax return and that an identity theft indicator is placed on the tax
            account.
            The Accounts Management assistor sends a letter to the legitimate taxpayer advising
            him or her that he or she has been a victim of identity theft and that an indicator has
            been added to his or her tax account to alert the IRS that the taxpayer is a victim of
            identity theft.
 January    Adjustments post to the legitimate taxpayer’s tax account and the refund is released
  2012      and sent to the taxpayer.
            The taxpayer receives another letter advising him or her that he or she has been a
            victim of identity theft and that his or her account has been flagged as such.




                                                                                              Page 8
                              Case Processing Delays and Tax Account Errors
                              Increased Hardship for Victims of Identity Theft



Cases had significant periods of inactivity
Inactivity on the 100 identity theft cases we reviewed averaged 277 days. For 16 cases, no work
was performed for more than 365 days. Figure 5 shows the range of inactivity for the cases we
evaluated.
                   Figure 5: Analysis of Inactivity on Identity Theft Cases
                        Number                                     Range of Days
                        of Cases            Percent              Cases Were Inactive
                           19                 19%                  Less Than 151
                           16                 16%                      151 to 200
                           19                 19%                      201 to 250
                           14                 14%                      251 to 300
                           16                 16%                      301 to 365
                            3                  3%                      366 to 400
                            4                  4%                      401 to 500
                            9                  9%                Greater Than 500
                    Source: TIGTA analysis of the number of days cases were inactive.

A significant contributing factor to the inactivity on cases is that the Accounts Management
assistors working on identity theft cases are assigned to answer taxpayer telephone calls in
addition to resolving identity theft cases. For example, responses to our survey of 483 Accounts
Management assistors14 conducted during the 2013 Filing Season, found that:
      Question – During the filing season (January 1 through April 15), what percentage of
       your time do you work the toll-free telephone lines? Response – 264 (55 percent) of
       483 assistors estimated that they spend the majority of their time working the phones.
      Question – Generally, what percentage of your time is spent working the phones rather
       than working on identity theft cases? Response – 169 (35 percent) of 483 assistors
       estimated that they spend the majority of their time working the phones.
In addition, discussions with a management official knowledgeable about the processing of
identity theft cases corroborated the results of our survey regarding the competing priorities for
tax assistors working cases. This official estimated that 400 (57 percent) of about 700 assistors
located in one site and trained to work identity theft cases were required to answer telephone
inquiries full time during the 2013 Filing Season. These assistors continued to have an assigned
inventory of identity theft cases while they answered the telephones. The remaining
300 assistors were required to answer the telephones one day per week.

14
  The IRS provided a listing to TIGTA of assistors who worked identity theft cases as well as those who answer
identity theft telephone inquiries. Our survey included only those IRS assistors who worked identity theft cases.

                                                                                                             Page 9
                               Case Processing Delays and Tax Account Errors
                               Increased Hardship for Victims of Identity Theft



IRS management stated that the results of our survey (the estimated time that assistors are
answering phones versus working cases) differs significantly from the time frames they compute
using management information reports. Because of the concerns raised by the survey results,
we plan to assess the accuracy of the management information used to monitor program
performance as part of our next follow-up audit.
Another factor contributing to the inactivity on the sample cases was that some assistors, after
determining the rightful owner of the SSN, did not always perform tax account adjustments
needed to resolve the case. In some cases, assistors disagreed as to who should request or
provide internal documents needed to perform the adjustments. These cases were sometimes
inactive for hundreds of days before adjustments were made to the tax accounts. Assistors were
either not trained or not given the authority to adjust accounts. This same concern was raised by
the IRS in an August 2011 assessment of the time frames to work identity theft cases. The
assessment concluded that Accounts Management function assistors spend most of their time
waiting for internal documents needed to work the identity theft cases or waiting for other
assistors to perform adjustments to the tax accounts.
Cases were frequently reassigned
The cases we reviewed were assigned to an average of 10 different assistors prior to case
resolution. Although we could not always determine why the cases were reassigned because the
reasons for case reassignments were not always documented, the more a case was reassigned, the
longer the delays in resolving the case. Cases with multiple reassignments also had on average
eight contacts that taxpayers made with the IRS to check on the status of their case or to provide
additional information.
Case complexity was the primary reason for frequent reassignments. Cases often required more
experienced and highly trained assistors to resolve the cases. For example, 20 (20 percent) of the
100 cases reviewed required reassignment to a more highly trained assistor for resolution. Other
reasons for reassigning cases included cases being over-aged, assistors taking vacation, and
taxpayers needing assistance from a bilingual employee. In addition, we found that for
33 (33 percent) of the 100 cases reviewed, the cases were reassigned to the Taxpayer Advocate
Service15 (TAS) for resolution because the taxpayers requested intervention from the TAS after
suffering a financial hardship. Case reassignments to the TAS increased 61 percent from
FY 2011 to FY 2012 and were the top source of work for this office in FY 2012. This trend
continued through March 31, 2013, with receipts rising over 66 percent compared to the same
period last year. Figure 6 provides a hypothetical example of case reassignments.


15
   The TAS coordinates with the Accounts Management function to ensure that cases are expedited in an effort to
relieve taxpayer hardships. Hardship includes taxpayers needing their refund to retain housing, obtain food for self
and family, pay bills, obtain medical treatment, or retain his or her job (will become unemployed due to lack of
transportation).


                                                                                                            Page 10
                                Case Processing Delays and Tax Account Errors
                                Increased Hardship for Victims of Identity Theft



                             Figure 6: Example of Case Reassignments

          Reassignment          Date           From               To                       Purpose

                                             Inventory
                 1           3/14/2011                         Assistor                First Assignment
                                               Queue
                                                                                No explanation in case history
                 2           3/17/2011        Assistor         Assistor
                                                                                      for reassignment
                                                                                  Complex case; assistance
                 3           3/21/2011        Assistor      Team Leader
                                                                                 requested from the assistor
                                               Team                             No explanation in case history
                 4           6/21/2011                         Assistor
                                              Leader                                  for reassignment
                                                                               Complex issue case reassigned
                 5           9/23/2011        Assistor         Assistor
                                                                                  to specialized assistor
                                                              Taxpayer          Taxpayer suffering a financial
                 6           1/23/2012        Assistor        Advocate             hardship requests TAS
                                                            Service (TAS)               assistance
                                             Taxpayer
                                                                                No explanation in case history
                 7           1/23/2012       Advocate          Assistor
                                                                                      for reassignment
                                              Service
                                                                                No explanation in case history
                 8           2/15/2012        Assistor         Assistor
                                                                                      for reassignment
                                                                               Adjustment error was made on
                 9            3/6/2012        Assistor         Assistor
                                                                                tax account; case reopened
                                                                                No explanation in case history
                 10           3/6/2012        Assistor         Assistor
                                                                                      for reassignment
         Source: TIGTA analysis of identity theft case reassignments.

In addition to the significant burden that case delays and inactivity cause taxpayers, these delays
also increase the interest amount that the IRS must pay on refunds when they are ultimately
issued to the rightful taxpayer.16 For the cases we reviewed, the IRS paid $7,297 in total interest
to 87 of the 100 taxpayers due to the case resolution delays. Projected over the population of
78,477 cases closed during the period from August 1, 2011, to July 31, 2012, the IRS could
potentially have paid interest on refunds totaling more than $5.7 million due to delays in
processing identity theft cases.




16
  The IRS is required to pay interest on a taxpayer’s refund if it is not paid within 45 days after the latter of the tax
return due date or the return received date of a processible tax return.
                                                                                                                 Page 11
                                  Case Processing Delays and Tax Account Errors
                                  Increased Hardship for Victims of Identity Theft



Tax accounts were not correctly resolved
The IRS did not correctly resolve the tax accounts for 25 (25 percent) of the 100 cases reviewed.
Errors on the tax accounts resulted in delayed refunds to all 25 taxpayers and, for 18, required
the IRS to reopen the case to take additional actions to resolve the errors. Additionally, for these
18 cases, the IRS issued an incorrect refund amount. For 15 of the incorrect refunds, the
taxpayer identified the error and called the IRS to dispute the incorrect refund amount received.
Figure 7 shows the type of errors found in the 25 cases along with the effect on the taxpayer.
             Figure 7: Identity Theft Case Errors and Their Effect on Taxpayers

                                                                     Number
                       Type of Error                                 of Cases      Effect on Taxpayer

                       Assistor incorrectly adjusted the tax
                       account. For example, the assistor                          Rightful taxpayer received an
      Adjustment                                                        18
                       incorrectly combined the identity thief’s                   incorrect refund amount.
                       and rightful taxpayer’s tax returns.

                       Assistor incorrectly input a freeze code17                  Rightful taxpayer’s refund was
                       to the rightful taxpayer’s tax account or                   delayed and/or additional
      Posting                                                             5
                       does not place an identity theft indicator                  erroneous refunds could be
                       on the rightful taxpayer’s tax account.                     issued to identity thieves.

                       ***************1**************************                  ******************1******************
      Processing                                                      **1**
                       **********************1****.                                ******1*********

     Source: TIGTA analysis of 25 identity theft cases for which the IRS did not correctly adjust the tax account.

The errors in account resolutions resulted from the lack of clear procedures and training provided
to assistors working these cases. We reported in May 2012 that the Accounts Management
function did not have a clear or consistent method or guidance for adjusting taxpayer accounts.
Properly adjusting an account includes ensuring that the tax account reflects the correct
information from the rightful taxpayer’s tax return and ensuring that an identity theft indicator is
placed on the tax account. However, procedures on how an assistor accomplishes this remain
unclear and are not centralized in internal guidance documents.
We surveyed 183 assistors who work identity theft cases. When asked to describe concerns with
guidance on working cases, 133 (73 percent) of the assistors responded that the Accounts
Management function’s identity theft procedures are confusing. The remaining 50 employees
(27 percent) believed that the Identity Theft Program needed its own procedure section in the
IRS’s internal guidance. In response to another survey question, 305 (74 percent) assistors
responded that the overall process for working identity theft cases has not improved over the past


17
  Alpha codes applied to a taxpayer’s account that identify specific conditions and restrict normal systemic
processing, such as stopping notices and refunds.
                                                                                                                 Page 12
                            Case Processing Delays and Tax Account Errors
                            Increased Hardship for Victims of Identity Theft



year. IRS officials informed us at the end of our fieldwork that revised procedures were
scheduled to be issued on October 1, 2013.
The complexity of identity theft cases increases the need for the IRS to ensure that assistors
remain adequately trained. IRS officials informed us that all assistors received required training
in Calendar Year 2012. Officials stated that on-the-job instruction was also provided to the
assistors after the training. Nonetheless, IRS officials did acknowledge that assistors
comprehend the training at different levels. Based on employees’ concerns, it appears that
additional training is needed; however, the IRS does not plan to schedule any additional training
for assistors for the remainder of FY 2013 or FY 2014. Management indicated that the training
would not be provided because all assistors are fully trained.

Documentation did not support the IRS’s decision to provide taxpayers with a
case resolution time frame of 180 days
On January 24, 2013, the IRS issued two alerts to notify assistors of a change in procedure.
Assistors were instructed to inform taxpayers who inquire about the status of their identity theft
case that the time frame for resolving their case would be 180 days. When we became aware of
these alerts, we requested documentation from the IRS supporting the 180-day time frame. On
April 2, 2013, the IRS provided documentation of its analysis of case resolution time frames
supporting its position of the 180-day closure. This documentation included a talking paper,18 a
slideshow, a spreadsheet, and a timeline. Our review of the documentation found that the
information did not support the IRS position that identity theft cases were resolved in 180 days.
In fact, the documentation showed that the actual number of days it took to resolve identity theft
cases ranged from 228 to 298 days.
The documentation supporting the decision to provide taxpayers with the 180-day time frame for
case resolution was based partly on the IRS’s monitoring of taxpayers’ comments on social
media websites. These comments showed that taxpayers affected by identity theft were venting
their frustrations about the varying time frames provided by the IRS and the delays in refund
processing. The IRS’s decision was intended to lessen taxpayer and employee frustration by
establishing a consistent time frame to provide to taxpayers.
In our opinion, providing an unrealistic case resolution time frame could lead to even greater
taxpayer and employee frustration. At the completion of field work for this review, IRS officials
informed us that they have other documentation that supports the 180-day time frame. However,
because it was not provided timely, we did not have time to assess its validity for inclusion in
this report.



18
  The talking paper, given to Accounts Management function and Wage and Investment Division executives to
assist in making the decision, provided the background, research, and analysis for the 180-day time frame
recommendation.
                                                                                                     Page 13
                         Case Processing Delays and Tax Account Errors
                         Increased Hardship for Victims of Identity Theft



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure that assistors assigned to identity theft cases work these cases
exclusively and are provided ongoing training and the ability to perform all actions needed to
work cases to conclusion.
       Management’s Response: IRS management agreed with this recommendation. The
       Accounts Management function within the Wage and Investment Division has assistors
       dedicated exclusively to working identity theft inventory cases and staffing identity theft
       phone lines, with the exception of heavy volume Mondays. All identity theft
       caseworkers have the capability to perform all necessary actions needed to complete the
       processing of a case. Training is provided as needed and available resources are
       identified. Specific employees are scheduled for identity theft training during Continuing
       Professional Education. Continuing Professional Education also allows the sites to
       customize training based on the skill type and needs of their employees. Continuing
       Professional Education also allows for employees to select one or two elective courses
       based on their needs.
       Training will continue to be based on individual and site needs as well as for future
       procedural changes that require specific training opportunities. The IRS will continue to
       ensure that there are sufficient resources assigned to identity theft inventory and phones.
Recommendation 2: Develop clear and consistent processes and procedures for assistors to
follow to ensure that taxpayer accounts are correctly updated when cases are resolved.
       Management’s Response: IRS management agreed with this recommendation and
       will continue to develop the existing processes and procedures to ensure that all
       appropriate actions are taken on identity theft victims’ accounts. The Internal Revenue
       Manual is continually revised to improve the applicable procedures and to introduce
       newly identified processes. The processes are adapted based on employee feedback
       along with yearly publishing updates, which provide each area an opportunity to
       thoroughly review the existing guidelines and identify opportunities for improvement.
       The IRS worked closely with a group of identity theft experts from several sites to clarify
       and organize the flow and the overall ease of use of the current Internal Revenue Manual,
       which is scheduled for publishing on October 1, 2013.




                                                                                           Page 14
                                 Case Processing Delays and Tax Account Errors
                                 Increased Hardship for Victims of Identity Theft



Processes to Ensure the Accuracy of the Identity Theft Management
Information Need to Be Developed
Analysis of the CY 2012 Global Report identified that the Accounts Management function’s
open case inventory was overstated by 95,429 cases. Figure 8 provides a breakdown of this
overstatement.
                  Figure 8: Overstatement of Accounts Management Function
                  Identity Theft Open Cases at the End of Calendar Year 2012

         Open cases reported in the CY 2012 Global Report                                      424,181

         Open cases reported to TIGTA for CY 2012                                              328,752

         Overstatement of Open Case Inventory in the Global Report                              95,429

       Source: TIGTA analysis of Accounts Management function open case inventory as of December 31, 2012.

The Global Report is the IRS’s authoritative source for identity theft management information
and is used to make decisions about strategies and resources needed to address the growing
identity theft epidemic. It includes statistics from 20 IRS functions that work identity theft cases.
The report provides key statistics on the number of identity theft open and closed cases,
incidents, and affected taxpayers and on the amount of fraudulent refunds the IRS identified. In
addition, the Global Report is used to provide key statistical information on identity theft cases in
briefings to Congress.
The inaccuracy we identified results from processes and procedures that were not developed to
validate the data provided by the functions to the PGLD Office or the data that the PGLD Office
includes in the Global Report. In addition, there is no requirement to retain supporting data
provided by the functions to the PGLD Office for inclusion in the Global Report.
The methods used by the functions to compile information for the report range from simple
manual counting to complex computer programs. There is no consistency in the manner in
which functions report their counts. For example, some functions report counts by unique
taxpayer, while others such as the Accounts Management function report counts by identity theft
category codes.19 Reporting by identity theft category code results in duplicate counts for the
same taxpayer and requires the PGLD Office to manipulate the information in an attempt to
remove the duplicates so that it can provide accurate counts in the Global Report.
The PGLD Office does require functions to review a draft of the Global Report prior to monthly
issuance and to provide verification that the information reported is accurate. However, our
review of the March 2013 report processing identified that seven of the 20 functions providing



19
     The category code is a four-digit code designating the type or source of adjustment or correspondence cases.
                                                                                                             Page 15
                         Case Processing Delays and Tax Account Errors
                         Increased Hardship for Victims of Identity Theft



data for input to the Global Report did not provide the required written verification to the PGLD
Office confirming the accuracy of the information being reported.

Recommendations
The Deputy Commissioner for Operations Support and the Commissioner, Wage and Investment
Division, should:
Recommendation 3: Develop a standard format for information provided for inclusion in the
Global Report to ensure consistency. The information reported should reflect unique taxpayers.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will develop a template for functional areas to use when reporting inventory for the
       Global Report. The template will ensure that inventory is captured consistently and will
       also improve the audit trail for submitted information. The IRS will also work with
       functional areas to report inventory at the entity (taxpayer) level as opposed to the
       module level.
Recommendation 4: Develop validation processes and procedures to ensure the accuracy of
information provided for inclusion in the Global Report.
      Management’s Response: IRS management agreed with this recommendation. The
      Privacy, Government Liaison, and Disclosure organization currently collects data from
      various functions throughout the IRS. After the data are compiled and entered into the
      Global Report, the IRS will use a certification process for each individual function to
      verify the data it provided. The IRS will provide additional guidance as to how each
      function should validate the data it provides.
Recommendation 5: Develop retention requirements for the documentation supporting
information included in the Global Report.
       Management’s Response: IRS management agreed with this recommendation.
       The IRS will ensure that each function maintains documentation in accordance with
       existing retention standards.




                                                                                          Page 16
                                 Case Processing Delays and Tax Account Errors
                                 Increased Hardship for Victims of Identity Theft



                                                                                          Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS improved its assistance to victims of
identity theft.
I.         Assessed whether the IRS maintains timely and complete identity theft case workload
           data.
           A. Determined internal reporting requirements related to identity theft.
           B. Assessed the IRS’s method for ensuring the accuracy of data reported about the
              Identity Theft Program. We analyzed the data the Accounts Management function
              provides to the PGLD Office that are used in the Global Report. We determined from
              the population of 424,181 case records whether the data reported were accurate.
II.        Assessed whether the IRS timely and effectively resolves identity theft cases.
           A. Based on the 7 percent error rate of a preliminary sample, we randomly selected a
              statistically valid sample of 100 victims (taxpayers) of identity theft from a
              population of 78,477 for the period of August 1, 2011, through July 31, 2012. The
              population of identity theft taxpayers was identified from an Individual Master File1
              extract where accounts showed identity theft indicators that were input by the
              Accounts Management function. We used an expected error rate of 7 percent, a
              precision rate of 5 percent, and a confidence interval of 95 percent to select the
              statistical sample
           B. For the statistically valid sample, we determined:
                1. Whether the determination of the identity thief and lawful taxpayer was made
                   correctly.
                2. Whether identity theft indicators were accurately and timely input on the
                   appropriate accounts and all needed adjustments were accurately made to the
                   affected accounts.
                3. The average time it took to resolve the identity theft cases.
                4. The number of assistors assigned to cases.
                5. The amount of inactivity for each case.


1
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                              Page 17
                              Case Processing Delays and Tax Account Errors
                              Increased Hardship for Victims of Identity Theft



             6. The number of times the taxpayer contacted the IRS.
             7. Whether the taxpayer’s address was changed correctly.
             8. The amount of the tax refund paid to the identity thief and the amount of the tax
                refund and interest paid to the lawful taxpayer.
III.    Conducted a survey of all employees who work identity theft cases to determine whether
        procedures were adequate. We surveyed 2,264 employees who were designated by the
        IRS as identity theft case workers.
             Of 483 responses, 263 (54 percent) responded to the question: During the filing
             season (January 1 through April 15) what percentage of your time do you work the
             toll-free telephone lines?
             There were 183 responses to the question: Please describe any issues you have with
             the Internal Revenue Manual relating to identity theft.
IV.     Followed TIGTA validation procedures to ensure that all data used during the audit were
        valid, complete, and accurate. Data used to select the statistically valid sample in
        subobjective II were validated by selecting an independent sample of the data extract to
        validate. We assessed the reliability of data extracted from the Individual Master File
        by: 1) requesting and receiving a data extract with specific criteria from the TIGTA
        Strategic Data Services Division, 2) performing preliminary tests to ensure it contained
        the data requested in a useable format, and 3) selecting a judgmental sample of five cases
        to verify that the data elements extracted matched the taxpayer account information on
        the Integrated Data Retrieval System.2 We determined that the data were valid and
        reliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
guidelines used by the Identity Theft Program to work and control identity theft cases. We
evaluated these controls by reviewing cases, interviewing management, analyzing data, and
reviewing policies and procedures. We also analyzed the data included in the Global Report.




2
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 18
                         Case Processing Delays and Tax Account Errors
                         Increased Hardship for Victims of Identity Theft



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
W. Allen Gray, Director
Lena Dietles, Audit Manager
Tracy Harper, Lead Auditor
Tanya Adams, Senior Auditor
Kenneth Carlson, Senior Auditor
Jerry Douglas, Senior Auditor
Lynn Faulkner, Senior Auditor
Sandra Hinton, Senior Auditor
Patricia Jackson, Senior Auditor
Geraldine Vaughn, Senior Auditor
Jerome Antoine, Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor




                                                                                          Page 19
                        Case Processing Delays and Tax Account Errors
                        Increased Hardship for Victims of Identity Theft



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Chief Technology Officer OS:CTO
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Support, Wage and Investment Division SE:W
Director, Office of Program Evaluation and Risk Analysis RAS:O
Director, Privacy, Governmental Liaison and Disclosure OS:P
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Adviser, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operation Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education and Communications (SPEC), Wage and
Investment Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                    Page 20
                          Case Processing Delays and Tax Account Errors
                          Increased Hardship for Victims of Identity Theft



                                                                                   Appendix IV

                                 Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Potential; 95,429 taxpayer cases overstated in identity theft
    inventory for a one-year period (see page 15).

Methodology Used to Measure the Reported Benefit:
We analyzed the Accounts Management function’s identity theft open case inventory at the end
of CY 2012 and determined that there were 328,752 open cases. We then compared this number
to the Accounts Management function’s open case inventory reported in the CY 2012 Global
Report, which was 424,181 cases. Our comparison identified that the Accounts Management
function’s reported inventory in the Global Report was overstated by 95,429 taxpayer cases
(424,181 – 328,752).




                                                                                            Page 21
        Case Processing Delays and Tax Account Errors
        Increased Hardship for Victims of Identity Theft



                                                    Appendix V

Management’s Response to the Draft Report




                                                           Page 22
Case Processing Delays and Tax Account Errors
Increased Hardship for Victims of Identity Theft




                                                   Page 23
Case Processing Delays and Tax Account Errors
Increased Hardship for Victims of Identity Theft




                                                   Page 24
Case Processing Delays and Tax Account Errors
Increased Hardship for Victims of Identity Theft




                                                   Page 25
Case Processing Delays and Tax Account Errors
Increased Hardship for Victims of Identity Theft




                                                   Page 26
Case Processing Delays and Tax Account Errors
Increased Hardship for Victims of Identity Theft




                                                   Page 27
